                                                NATIONAL SCIENCE FOUNDATION
                                                 OFFICE OF INSPECTOR GENERAL
                                                   OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM

Case Number: I03110059                                                                    Page 1 of 1



        This matter was open as part of Program Income review of conference grants. Initial review
        identified that the grantee paid a USDA employee to attend an international scientific conference
        in Canada. Review of the documents revealed that the USDA employee, who also holds an
        appointment at a university, disclosed to the grantee that he was a USDA employee, and could
        not receive direct payment for expenses. The USDA employee notified the grantee that payment
        should be made to the university. The Grantee issued the payment to the university.

        NSF'S "ADMINISTRATIOI\J OF NSF CONFERENCE OR GROUP TRAVEL AWARD -
        GRANT SPECIAL CONDITIONS (FL 26)," states that Federal employees may be compensated
        for their travel expenses to attend the conference/workshop provided that prior written approval
        is obtained from their agency.

        We consulted with USDA-OIG and determined that the employee acted appropriately by
        disclosing he was a USDA employee and having payment made to the university.

        Accordingly, this case is closed.




ISF OIG Form 2 (1 1/02)
